HHS/OIG, Audit - "Safeguards Over Controlled Substances at Santo Domingo
Indian Health Center," (A-06-07-00049)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Safeguards
Over Controlled Substances at Santo Domingo Indian Health Center,"
(A-06-07-00049)
May 10, 2007
Complete Text of Report is available in PDF format (413 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Santo Domingo Indian Health Center (Santo Domingo) complied with applicable requirements to secure and account for its Schedule II substances. Santo Domingo complied with applicable requirements to secure and account for its Schedule II substances. However, Santo Domingo did not institute all recommended security precautions or have adequate internal controls over these substances. As a result, Schedule II substances at Santo Domingo were vulnerable to theft and mismanagement.
We recommended that the Indian Health Service (IHS) direct Santo Domingo to (1) consider monitoring its alarm system after pharmacy hours and (2) establish a control to compensate for a lack of separation of duties by having another person, in addition to the pharmacist, participate in the receiving and recording functions to ensure that Schedule II substances received are the same as those ordered and that substances received are accurately entered in inventory records. IHS concurred with our findings and recommendations and stated that Santo Domingo had implemented, or was currently implementing, the recommended corrective action.